XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1515 CLAY STREET, 20TH FLOOR
P.O. BOX 70550
OAKLAND, CA 94612-0550

Public: (510) 879-1300
Telephone: (510) 879-0756
Facsimile: (510) 622-2270
E-Mail: Joshua.Klein@doj.ca.gov

April 21, 2020
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
1 First St., NE
Washington, DC 20543
RE:

Native Wholesale Supply Co. v. California ex rel. Becerra, No. 19-985
Unopposed request for extension of time

Dear Mr. Harris:
This office represents the respondent in the above-captioned case. We respectfully
request that the time for filing our response to the petition for certiorari be extended by 30 days.
The petition was filed on February 3, 2020. On March 5, the Court requested a response.
The Court granted our request to extend the deadline for that response by an initial 30 days, to
May 6. Pursuant to Rule 30.4, respondent now requests that the deadline be extended by an
additional 30 days. A stay-at-home order is currently in place in the California counties where
the responsible attorneys live and work. Although we continue to work from home, that work
proceeds more slowly, and California’s Office of Solicitor General has numerous other matters
(including matters before this Court) with deadlines around the existing deadline for this brief.
The extension will allow for preparation of a response that respondent believes would be most
helpful to the Court.
Petitioner’s counsel, Mr. Barnhouse, has stated that he does not oppose this request.
Respectfully submitted,
/s/ Joshua A. Klein
JOSHUA A. KLEIN
Deputy Solicitor General
For
cc: Randolph Henry Barnhouse, Esq.

XAVIER BECERRA
Attorney General

